~
COKE:

2311 Douglas Street $
Omaha, Nebraska 68102-1214 Legal B picts contact@cocklelegalbriefs.com

Web Site

1-800-225-6964
www.cocklelegalbriefs.com

(402) 342-2831
Fax: (402) 342-4850

No. 19-704

MATTHEW D. WILSON and TROY EDHLUND,
Petitioners,
v.

COOK COUNTY, a public body and corporate,
TONI PRECK WINKLE, Board President, in her
official capacity, and its Board of Commissioners in
their official capacities, namely: JERRY BUTLER,
DEBORAH SIMS, PETER N. SILVESTRI, JOHN F.
DALEY, LARRY SUFFREDIN, GREGG GOSLIN,
TIMOTHY O. SCHNEIDER, LUIS ARROYO JR.,
RICHARD R. BOYKIN, DENNIS DEER, JOHN A.
FRITCHEY, BRIDGET GAINER, JESUS G. GARCIA,
EDWARD M. MOODY, STANLEY MOORE, SEAN M.
MORRISON, JEFFREY R. TOBOLSKI, and THOMAS
DART, Sheriff of Cook County, in his official capacity,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2398 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of February, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE -
General Notary
State of Nebraska a C Clie Quduan-k Gh

Notary Public Affiant 39508

My Commission Expires Nov 24, 2020

 
